HHS/OIG, Audit -"Audit of Californias Medicaid Inpatient Disproportionate Share Hospital Payments for State Fiscal Year 1998,"(A-09-02-00054)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Californias Medicaid
Inpatient Disproportionate Share Hospital Payments for State Fiscal Year
1998," (A-09-02-00054)
May 30, 2003
Complete
Text of Report is available in PDF format (3.37 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that the California Department of Health Services
(state) made disproportionate share hospital (DSH) payments to 21 hospitals
that exceeded the hospitals uncompensated care costs (UCC) limits for state
fiscal year 1998.  The UCC limits as determined by the state did not comply
with the purpose of the Omnibus Budget Reconciliation Act of 1993 and the Centers
for Medicare & Medicaid Services requirements and implementing guidance.  The
excess DSH payments for the 21 hospitals totaled over $252 million ($126.5
million federal share).  The UCC limits were overstated because the state;
(1) used projected amounts instead of actual incurred costs and payments for
the year in which hospital services were rendered, (2) did not limit total
operating expenses to amounts that would be allowable under Medicare cost principles,
and (3) inappropriately included bad debts as an additional operating expense.  Among
other things, and in addition to financial adjustments, we recommended that
the state establish an adequate system of internal controls for DSH operations
that meet federal and state requirements.